         U.S. Department of Energy
         Office of Inspector General
         Office of Inspections and Special Inquires




Inspection Report
Internal Controls over Computer Hard
Drives at the Oak Ridge National
Laboratory




INS-O-10-03                          August 2010
                                 Department of Energy
                                     Washington, DC 20585

                                        August 16, 2010



MEMORANDUM FOR THE DIRECTOR, OFFICE OF SCIENCE



FROM:                    Sandra D. Bruce
                         Assistant Inspector General for Inspections and Special Inquiries

SUBJECT:                 INFORMATION: Inspection Report on “Internal Controls over
                         Computer Hard Drives at the Oak Ridge National Laboratory”

BACKGROUND

The Department of Energy’s (Department) Oak Ridge National Laboratory (ORNL) in Oak
Ridge, Tennessee, provides unique expertise in support of the Department’s science and national
security portfolios. UT-Battelle, LLC, manages ORNL for the Department through the Oak
Ridge Office. ORNL’s mission frequently involves producing and receiving sensitive electronic
information, data which requires special handling to protect against unauthorized disclosure. Of
its approximately 16,400 computers, over 6,200 produce, store or transfer sensitive unclassified
information, such as Official Use Only and Personally Identifiable Information (PII) (e.g. name,
social security number and medical history). Department guidance requires that storage media
no longer in use, but previously used to process sensitive unclassified information, be either
protected by approved encryption or tracked and controlled until purged or destroyed. After
receiving an allegation that computer hard drives were being removed by unauthorized
individuals, a practice that could potentially result in the unauthorized release of sensitive
unclassified information, the Office of Inspector General initiated an inspection to review the
facts and circumstances of the allegation.

RESULTS OF INSPECTION

We concluded that ORNL did not have adequate internal controls to effectively track and control
hard drives which potentially contain sensitive unclassified information. Specifically, ORNL
had not implemented controls to encrypt, or track and control, hard drives that may contain
sensitive unclassified information. Division Computer Security Officers (DCSOs), who are
responsible for identifying and addressing computer security concerns, informed us that they
recovered hard drives from unsecure locations, such as unoccupied offices, hallways, and docks.
Also, after recovering these hard drives, the DCSOs told us that they could not give us an
accurate count of the number of hard drives in their possession. To clarify the scope of this
potential vulnerability, we requested that ORNL conduct a survey to account for the total number
of hard drives secured by the DCSOs. In response to our request, ORNL identified
approximately 1,500 hard drives that were secured and stored by ORNL DCSOs at the site. In
reviewing the survey results, we noted significant disparity between the number of hard drives
                                                2

estimated by the DCSOs and the actual number recovered. Although the DCSOs controlled and
stored the hard drives, they acknowledged that the hard drives had not been formally tracked, as
required.

We also reviewed ORNL’s Campus Support and Instrumentation Division’s hard drive database.
The Division’s instrument technicians are responsible for removing hard drives from excessed
computers. A review of the database revealed that hard drives were missing from 424 computers
of which 193 had been used to process information in sensitive program areas, such as the Health
Services Division and those located in the Limited Security Area. In accordance with ORNL
policies, fixed (non-removable) computer hard drives are only to be removed from excessed
computers by Campus Support technicians. Nothing came to our attention to suggest that there
had been a compromise of system information. However, the concerns raised during the
inspection suggest that ORNL was not making the maximum use of readily available measures to
prevent compromise.

To address these matters, we made recommendations to the Manager, Oak Ridge Office.

MANAGEMENT REACTION

In comments on a draft of this report, Oak Ridge Office officials concurred with the report
recommendations, but took exception to some of our analysis regarding the requirement to track
or encrypt hard drives; the finding of hard drives in unoccupied rooms; and, the unauthorized
removal of hard drives. We addressed management’s concerns in the report.

Attachment

cc:    Deputy Secretary
       Under Secretary for Science
       Chief of Staff
       Director, Office of Risk Management, CF-80
       Manager, Oak Ridge Office
       Team Leader, Office of Risk Management, CF-80
       Audit Resolution Specialist, Office of Risk Management, CF-80
REPORT ON INTERNAL CONTROLS OVER COMPUTER HARD
DRIVES AT THE OAK RIDGE NATIONAL LABORATORY


TABLE OF
CONTENTS
                OVERVIEW

                Introduction and Objective             1

                Summary                                1


                DETAILS OF FINDINGS

                Inadequate Controls Over Hard Drives   4

                Other Matters                          8


                RECOMMENDATIONS                        8


                MANAGEMENT AND INSPECTOR COMMENTS      9


                APPENDICES

                A. Scope and Methodology               11

                B. Prior Reports                       12

                C. Management Comments                 13
Overview

INTRODUCTION    The Department of Energy’s (Department) Oak Ridge National
AND OBJECTIVE   Laboratory (ORNL) in Oak Ridge, Tennessee, provides technology
                and expertise in support of the Department’s science and national
                security portfolios. UT-Battelle, LLC, manages ORNL for the
                Department through the Oak Ridge Office. ORNL’s mission
                frequently involves producing and receiving sensitive electronic
                information data, which requires special handling to protect against
                unauthorized disclosure. Of its approximately 16,400 computers,
                over 6,200 produce, store or transfer information, including
                sensitive unclassified information, such as Official Use Only and
                Personally Identifiable Information (PII) (e.g. name, social security
                number and medical history). As part of its normal procedures,
                ORNL excesses approximately 2,000 computers annually, many of
                which may have processed sensitive unclassified information.

                To help protect sensitive unclassified information, the Department
                has issued specific tracking, controlling, purging and destruction
                guidance. In addition to Department regulations, ORNL has issued
                internal guidance and cyber security requirements which focus on
                protecting such information from inappropriate release.

                After receiving an allegation that computer hard drives were being
                removed by unauthorized individuals, a practice that could
                potentially result in the unauthorized release of sensitive
                unclassified information, the Office of Inspector General initiated
                an inspection. The inspection was initiated to determine whether:

                   •   ORNL had adequate internal controls to track and control
                       excessed computer hard drives;

                   •   Internal computer hard drives at ORNL were being
                       removed contrary to ORNL’s cyber security policies and
                       procedures; and,

                   •   The circumstances surrounding the removal and disposal of
                       hard drives at ORNL were consistent with requirements in
                       place at the time of our review.

SUMMARY         We concluded that ORNL’s controls over the tracking of hard
                drives, which may contain sensitive unclassified information, were
                inadequate to prevent the unauthorized dissemination of sensitive
                unclassified information. Specifically, ORNL had not
                implemented controls to encrypt or track and control hard drives.
                Department guidance requires that storage media no longer in use,




Page 1                                               Introduction and Objective
                                   but previously used to process sensitive unclassified information,
                                   be either protected by approved encryption or tracked and
                                   controlled until purged or destroyed.

                                   During our review, Division Computer Security Officers (DCSOs),
                                   who are responsible for identifying and addressing computer
                                   security concerns, informed us that hard drives were removed from
                                   computers without authorization, and had been abandoned in
                                   unoccupied offices, hallways, and other locations. This was an
                                   apparent disregard for established procedures. These hard drives
                                   were subsequently collected and secured by the DCSOs. We
                                   requested that ORNL conduct a survey to determine the number of
                                   hard drives stored and secured by the DCSOs. 1 As a result of our
                                   request, ORNL identified approximately 1,500 hard drives (which
                                   were no longer in use) that were secured and stored by the DCSOs
                                   at the site.

                                   In January 2007, the Department issued Cyber Security Program
                                   Chief Information Officer Guidance CS-11, “Media Clearing,
                                   Purging, and Destruction Guidance,” which notes that storage
                                   media no longer in use, which was previously used to process
                                   sensitive unclassified information, must be tracked and controlled
                                   until purged or destroyed.2 These protective measures for sensitive
                                   unclassified information are intended to minimize the potential of
                                   the inadvertent disclosure of information while increasing the
                                   difficulty of unlawfully obtaining such information.

                                   We noted that ORNL policy requires full disc encryption for all
                                   laptop computers. However, for desktop computers, ORNL had
                                   not implemented existing Department guidance to encrypt or track
                                   and control hard drives associated with sensitive unclassified
                                   systems. ORNL internal policy prohibits individuals other than
                                   Campus Support and Instrumentation Division instrument
                                   technicians (Campus Support technicians) from removing hard
                                   drives from computers. However, our review of the Campus
                                   Support technicians’ database revealed that hard drives were
                                   removed by someone other than the authorized technicians.
                                   Specifically, hard drives were missing from 424 computers
                                   (11 were laptop computers) of which 193 had been used to process



1
  The total number of hard drives stored and secured included abandoned hard drives and hard drives turned in to the
DCSOs. The survey would be beneficial in determining the accountability of hard drives which may contain
sensitive unclassified data.
2
  CS-11 has been replaced by the Department’s issued Cyber Security Technical and Management Requirements,
“Media Clearing, Purging, and Destruction (TMR-10)”.


Page 2                                                                                                Summary
         information in sensitive program areas, such as the Health Services
         Division and those located in the Limited Security Area (LSA).
         While we are not aware of any resulting compromise, these types
         of weaknesses expose the Department to the risk that sensitive
         mission and PII information may be compromised. We
         coordinated with Oak Ridge Office and ORNL officials during our
         fieldwork. In response to our findings, ORNL officials initiated a
         number of corrective actions to track hard drives used to process
         such information. These actions included:

            •   Notifying ORNL employees of ORNL’s policy that fixed
                (non-removable) computer hard drives are only to be
                removed from excessed computers by Campus Support
                technicians. ORNL is currently working on addressing
                employee awareness and also anticipates revising its cyber
                security training on this topic;

            •   Removing and destroying approximately 1,500 hard drives;
                and,

            •   Taking action to implement the Department’s most current
                guidance and requirements on tracking hard drives used in
                processing sensitive unclassified information.

         The Office of Inspector General has completed several reviews
         related to information security, expressing concerns regarding the
         ability of Department sites to protect sensitive unclassified
         information. An August 2009 OIG report identified the concern
         that various Department sites were not encrypting sensitive
         information contained on desktops. A list of the associated reports
         is found at Appendix B.




Page 3                                                           Summary
Details of Findings

INADEQUATE            We concluded that ORNL did not have adequate internal
CONTROLS              controls to effectively encrypt or track and control hard drives that
OVER                  potentially contain sensitive unclassified information. Computer
HARD DRIVES           Support technicians and DCSO informed us that hard drives were
                      removed from computers by unauthorized personnel and, in some
                      instances, abandoned in various locations. This situation occurred
                      because some ORNL employees were not aware of the
                      requirement that only technicians were authorized to remove hard
                      drives; and ORNL had not implemented effective control
                      measures. In this regard, officials had not ensured that responsible
                      employees complied with ORNL internal guidelines or the
                      Department’s guidance and requirement to encrypt or track and
                      control, hard drives containing sensitive unclassified information.
                      This situation increased the potential for the compromise of
                      sensitive unclassified information.

Recovered             The DCSOs informed us that numerous hard drives had been
Hard Drives           recovered from unoccupied ORNL offices, hallways, docks and
                      other locations. These hard drives, some from computers used in
                      sensitive areas, were removed without authorization, abandoned in
                      various locations and subsequently found by DCSOs and secured.
                      The identity of the individuals abandoning those hard drives was
                      unknown to the DCSOs. Although the DCSOs subsequently
                      controlled and stored the hard drives, none of the DCSOs provided
                      evidence that the hard drives were formally tracked. To emphasize
                      this lack of tracking, one DCSO we interviewed estimated
                      approximately 100 recovered hard drives were in storage, but when
                      he took us to an adjacent building, we counted only 55 recovered
                      hard drives. These hard drives have been stored in two locked
                      rooms for years since being secured from various offices and
                      laboratories.

                      In order to determine the number of untracked hard drives residing
                      with the DCSOs, we requested that Laboratory officials conduct a
                      survey to identify hard drives secured and stored by ORNL which
                      were no longer in use. As a result of our request, the DCSOs
                      identified approximately 1,500 hard drives, including the 55
                      originally identified in our review. After conducting this
                      assessment, ORNL management took immediate action and
                      destroyed the 1,500 hard drives in accordance with Department
                      regulations.

                      The survey results also identified 66 recovered hard drives that
                      were identified and collected by the DCSO we mentioned
                      previously. No explanation was ever provided to account for the
                      additional 11 hard drives. In fact, the survey identified several



Page 4                                                               Details of Findings
                                      other DCSOs with a significant disparity between the estimated
                                      number of hard drives in storage and those actually recovered, the
                                      largest discrepancy of which was 159 fewer hard drives collected
                                      than was originally estimated by the DCSO. The lack of controls
                                      identified in our report and the disparity noted above raised
                                      additional concerns regarding the potential for compromised
                                      information.




                                                                     Hard drive storage

                                      During interviews, several DCSOs acknowledged that certain of
                                      the hard drives contained PII or opined the likelihood of such. To
                                      determine whether any of the hard drives contained PII, we
                                      requested that the Office of Inspector General’s Office of
                                      Investigations conduct a forensic examination of a hard drive that
                                      another DCSO indicated was found unsecured. In this case, the
                                      owner was never known to the DCSO. The forensic examination
                                      of the hard drive revealed that the hard drive contained sensitive
                                      unclassified information. Specifically, the examination of the hard
                                      drive revealed 21 pages of PII, including the name, date of birth,
                                      and medical information pertaining to an ORNL employee.3 The
                                      hard drive also contained the individual’s salary/deduction wage
                                      allocations, which ORNL treats as sensitive unclassified
                                      information, and assorted scientific research data.

                                      The inspection did not determine whether the personal information
                                      was generated by the individual on his or her work computer for
                                      personal use or by ORNL’s Health Services Division, Human
                                      Resources Directorate, or otherwise maintained by UT-Battelle or

3
    In accordance with Department policy, we notified the Office of Cyber Security regarding this issue.


Page 5                                                                                       Details of Findings
         the Department. In accordance with the Department’s Chief
         Information Officer Guidance CS-38A, “Protection of Sensitive
         Unclassified Information, Including Personally Identifiable
         Information,” UT-Battelle does not consider personal information
         stored by individuals about themselves on their assigned
         workstations or laptops at ORNL to be PII. Therefore, such
         information is not subject to Department protection requirements
         for sensitive unclassified information, unless it contains a social
         security number. ORNL’s policy, “Requirements for Protected
         Personally Identifiable Information,” defines PII as “An
         individual’s first name or first initial and last name in combination
         with any one or more of the following types of information
         including, but not limited to, medical, and financial records, etc.”

         Senior ORNL officials indicated that “encryption and tracking are
         not currently required by the ORNL contract.” The officials
         further stated that ORNL is in compliance with the current Office
         of Science’s Program Cyber Security Plan (PCSP), which has not
         been updated since 2007. However, the Department requires that
         Departmental elements, including the Office of Science, which
         manages ORNL, develop cyber security requirements through a
         Program Cyber Security Plan (PCSP) using a risk-based approach.
         Specifically, the Office of Science’s PCSP requirement is to
         implement Department Manual 205.1-2, “Clearing, Sanitization,
         and Destruction of Information System Storage Media, Memory
         Devices, and Related Hardware Manual.” Senior ORNL officials
         stated that 205.1-2 does not require encryption or tracking of hard
         drives. However, we noted that Department Manual 205.1-6,
         “Media Sanitization Manual,” issued in December 2008, requires
         that storage media no longer in use, previously used to process
         sensitive unclassified information, must either be protected by
         approved encryption or tracked and controlled until purged or
         destroyed.

         According to a senior Headquarters official responsible for
         maintaining and developing the PCSP for the Office of Science,
         ORNL is required to implement Department Manual 205.1-2 with
         consideration of Departmental Guidance CS-11, “Media Clearing,
         Purging, and Destruction Guidance.” CS-11, issued in January
         2007, as a part of the Department’s Cyber Security Revitalization
         Plan, identifies specific guidance concerning the tracking or
         control of storage media used to process sensitive unclassified
         information. The senior official stated that if ORNL officials did
         not implement CS-11, they should have documented that a risk
         assessment was conducted and formally identified the individual
         who assumed the risk to not implement the guidance. Oak Ridge



Page 6                                                  Details of Findings
               Office and ORNL officials were unable to provide documentation
               of the risk assessment conducted, nor could they provide the name
               or title of the individual accepting responsibility for not
               implementing Department guidance. The guidance noted in CS-11
               is similar to the requirements in Department Manual 205.1-6,
               “Media Sanitization Manual,” in that both require that sensitive
               information must be tracked and controlled until purged or
               destroyed. ORNL incorporated the requirements of Department
               Manual 205.1-6 in its contract in March 2009, but had not included
               the Manual requirements in its current ORNL Cyber Security Plan.
               A senior ORNL official from the Office of the Chief Information
               Officer informed us that, prior to our inspection there had been
               discussions of possibly encrypting hard drives for sensitive
               unclassified systems, or identifying systems that may contain such
               information and tracking the associated hard drives as part of
               ORNL’s Cyber Security Plan. In September 2009, ORNL officials
               informed us that they had initiated actions to evaluate the
               implementation of tracking hard drives used to process sensitive
               unclassified information.

               In a related Office of Inspector General report issued in
               August 2009, concerning the protection of sensitive unclassified
               information, we noted that sites reviewed were not encrypting
               sensitive information contained on desktops. Additionally, the
               National Institute of Standards and Technology (NIST) Special
               Publication 800-111, “Guide to Storage Encryption Technologies
               for End User Devices,” had identified such an encryption practice
               as a “best practice” and part of an effective risk-based management
               approach to information protection.

Unauthorized   We reviewed the hard drive database operated by the ORNL
Removal of     Campus Support technicians. Our review revealed that 424 hard
Hard Drives    drives were removed by someone other than the authorized
               technicians during the period of January 2008 to January 2009. Of
               the 424 hard drives, 193 were from sensitive program areas
               involved in national security, export control and medical
               information processing. The review also revealed that many
               computers had multiple hard drives installed, some up to 18. The
               removal of hard drives by unauthorized individuals as recognized
               by Department policy represents a vulnerability.

               During our interviews, three property custodians and one DCSO
               acknowledged removing the hard drives for use as a storage device
               or for reuse in other computers. One DCSO informed us of
               instances in which computers waiting to be excessed were being
               taken by ORNL employees from unoccupied rooms or hallways.



Page 7                                                      Details of Findings
                  In addition, 2 network administrators informed us that they had
                  removed 10 hard drives from computers waiting to be excessed
                  that were once used in sensitive program areas. This was done in
                  order to reuse them in an internal networking device. When asked
                  why they removed the hard drives, the administrators indicated
                  they were unaware of ORNL’s procedures which limits hard drive
                  removal to Campus Support technicians. ORNL procedure entitled
                  “Procedure for Disposition of Computers and Other Items with
                  Media,” specifies only ORNL’s Campus Support technicians are
                  authorized to remove internal hard drives.

                  Senior ORNL officials informed us that many of the hard drives
                  were removed by non-Campus Support technicians prior to the
                  issuance of its current policy. They further stated that hard drives
                  for unclassified computers located in the Limited Security Area
                  (LSA) must be removed prior to being excessed from the LSA, but
                  the technicians were incorrectly completing the forms. The
                  officials also indicated that improvements were made to the
                  internal procedures, issued between January 2008 and December
                  2008, clarifying the Campus Support technicians’ roles and
                  responsibilities in hard drive disposition.

OTHER MATTERS     Although outside the scope of our inspection, a DCSO informed us
                  of computers being taken by some ORNL employees or
                  disappearing while waiting to be excessed. During Fiscal Years
                  2007 and 2008, ORNL’s Property Management Organization listed
                  11 computers stolen and 39 computers/servers lost (3 of those
                  reported as lost were subsequently found). The computers were
                  likely at the end of their useful life and were not of great value, but
                  their disappearance and the lack of controls raised additional
                  concerns regarding the potential for compromised information.

RECOMMENDATIONS   Significant and timely corrective actions have been taken by
                  ORNL to improve security controls for most of the vulnerabilities
                  we identified; however, additional actions are warranted.

                  We recommend that the Manager, Oak Ridge Office:

                     1. Implement the Department’s requirements concerning
                        storage media no longer in use and previously used to
                        process sensitive unclassified information, to protect the
                        media by approved encryption, or tracking and control until
                        purged or destroyed.

                     2. Ensure ORNL trains employees on its policy and
                        procedures regarding removal of computer hard drives.



Page 8                                                            Recommendations
MANAGEMENT AND   In comments on a draft of this report, the Department’s Oak Ridge
INSPECTOR        Office concurred with the recommendations. Although
COMMENTS         management concurred with our recommendation, they took
                 exception to some of our analysis regarding the requirement to
                 track or encrypt hard drives; the finding of hard drives in
                 unoccupied rooms, and the unauthorized removal of hard drives.

                 Management’s comments are included in their entirety in
                 Appendix C of this report.

                 We consider management’s comments and corrective actions
                 planned and/or taken responsive to our recommendations. We
                 have addressed management’s comments below and made
                 technical changes to the report, as appropriate.

                 Management said that the ORNL sanitization policies are in
                 compliance with the current Office of Science (SC) Program Cyber
                 Security Plan (PCSP). The PCSP states, “SC policy is to
                 implement DOE M 205.1-2 with consideration of CS-11.”
                 Management observed that tracking or encryption of hard drives is
                 not required. We acknowledge that DOE M 205.1-2 does not
                 require tracking or encryption of hard drives; however, CS-11 does
                 require storage media no longer in use, previously used to process
                 sensitive unclassified information, be tracked and controlled until
                 purged or destroyed. Furthermore, if ORNL officials considered
                 but did not implement CS-11, they should have documented the
                 risk assessment conducted and formally identified the individual
                 who assumed the risk to not implement the guidance. The Oak
                 Ridge Office and ORNL officials were unable to provide us that
                 documentation.

                 Management commented that our reporting of hard drives found in
                 unoccupied offices is misleading because offices used for storage
                 were locked. While we agree that several unoccupied offices and
                 locations used for storage were locked, we were told by DCSOs
                 (who are responsible for accountability of hard drives) of instances
                 in which hard drives were collected from unlocked offices and
                 locations, which the DCSOs subsequently secured. Also, one
                 DCSO informed us of instances in which computers awaiting
                 excessing were being taken by ORNL employees from unoccupied
                 rooms or hallways.

                 Management noted non-instrument technicians removed many
                 hard drives prior to policy revisions and that some systems in the
                 LSA had removable hard drives, accounting for some missing hard
                 drives. Removable hard drives were not listed in our sample.



Page 9                                  Management and Inspector Comments
          Also, we noted that the policy to restrict the removal of hard drives
          from unclassified systems, including systems in the LSAs, was
          implemented in October 2005. Consequently, it seems unlikely
          that hard drives removed from computers by non-technicians prior
          to October 2005 were part of our data sample. Also, management
          noted that several boxes of hard drives not associated with
          computers were turned in by ORNL personnel, indicating the
          awareness of needed sanitization. The collection of several boxes
          of hard drives not associated with computers raises additional
          concerns regarding the lack of controls and the potential for
          compromised information from other media.




Page 10                           Management and Inspector Comments
Appendix A

SCOPE AND     Our review included computer excessing policies and procedures
METHODOLOGY   at the Oak Ridge National Laboratory and Department. The
              majority of our fieldwork was conducted from January through
              April 2010. Our research, analysis and fieldwork activities
              included:

                 •   Interviews with approximately 48 property custodians,
                     DCSOs, security officials associated with over 30 ORNL
                     program areas;

                 •   Review of Department and local policies and regulations
                     pertaining to internally transferred and excessed computers;

                 •   Assessment of documents, survey results, and electronic
                     spreadsheets regarding computers excessed, unaccounted
                     for hard drives, abandoned hard drives, and lost or stolen
                     computers;

                 •   Coordination with the Office of Inspector General’s
                     Technology Crimes Section to recover information stored
                     on a recovered and secured hard drive; and,

                 •   Review of prior Office of Inspector General and
                     Government Accountability Office reports, and other
                     related reports.

              This inspection was conducted in accordance with the Council of
              the Inspectors General on Integrity and Efficiency, “Quality
              Standards for Inspections,” issued by the President’s Council on
              Integrity and Efficiency.




Page 11                                               Scope and Methodology
Appendix B

PRIOR REPORTS   The following are prior related DOE Office of Inspector General
                reports:

                   •   “The Federal Energy Regulatory Commission’s
                       Unclassified Cyber Security Program – 2009” (DOE/IG-
                       0830, October 2009);

                   •   “The Department’s Unclassified Cyber Security Program –
                       2009” (DOE/IG-0828, October 2009);

                   •   “Protection of the Department of Energy’s Unclassified
                       Sensitive Electronic Information” (DOE/IG-0818, August
                       2009);

                   •   “Security Weaknesses in the Handling of Unclassified
                       Printers and Copiers at the Oak Ridge National Laboratory”
                       (INS-L-09-06, S08IS001, May 2009);

                   •   “Personal Property Management at Lawrence Livermore
                       National Laboratory” (INS-O-09-03, May 2009);

                   •   Special Report: “Management Challenges at the
                       Department of Energy” (DOE/IG-0782, December 2007);

                   •   “Security Over Personally Identifiable Information”
                       (DOE/IG-0771, July 2007);

                   •   “Internal Controls Over Computer Property at the
                       Department’s Counterintelligence Directorate” (DOE/IG-
                       0762, March 2007); and,

                   •   “Excessing of Computers Used for Unclassified Controlled
                       Information at Lawrence Livermore National Laboratory”
                       (DOE/IG-0759, March 2007).




Page 12                                                            Prior Reports
Appendix C




______________________________________________________________________________
Page 13                                                Management Comments
Appendix C (continued)




______________________________________________________________________________
Page 14                                                Management Comments
Appendix C (continued)




______________________________________________________________________________
Page 15                                                Management Comments
Appendix C (continued)




______________________________________________________________________________
Page 16                                                Management Comments
                                                                    IG Report No. INS-O-10-03


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
